<html>
<title> - AFGHANISTAN AND PAKISTAN: UNDERSTANDING AND ENGAGING REGIONAL STAKEHOLDERS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
     AFGHANISTAN AND PAKISTAN: UNDERSTANDING AND ENGAGING REGIONAL 
                              STAKEHOLDERS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 31, 2009

                               __________

                           Serial No. 111-12

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                  U.S. GOVERNMENT PRINTING OFFICE
51-898                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              TODD RUSSELL PLATTS, Pennsylvania
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                LYNN A. WESTMORELAND, Georgia
GERRY E. CONNOLLY, Virginia          PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   BRIAN P. BILBRAY, California
    Columbia                         JIM JORDAN, Ohio
PATRICK J. KENNEDY, Rhode Island     JEFF FLAKE, Arizona
DANNY K. DAVIS, Illinois             JEFF FORTENBERRY, Nebraska
CHRIS VAN HOLLEN, Maryland           JASON CHAFFETZ, Utah
HENRY CUELLAR, Texas                 AARON SCHOCK, Illinois
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------
------ ------
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         JEFF FLAKE, Arizona
PATRICK J. KENNEDY, Rhode Island     TODD RUSSELL PLATTS, Pennsylvania
CHRIS VAN HOLLEN, Maryland           DAN BURTON, Indiana
PAUL W. HODES, New Hampshire         JOHN L. MICA, Florida
CHRISTOPHER S. MURPHY, Connecticut   JOHN J. DUNCAN, Jr., Tennessee
PETER WELCH, Vermont                 MICHAEL R. TURNER, Ohio
BILL FOSTER, Illinois                LYNN A. WESTMORELAND, Georgia
STEVE DRIEHAUS, Ohio                 PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      JIM JORDAN, Ohio
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
DENNIS J. KUCINICH, Ohio
                     William Miles, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 31, 2009...................................     1
Statement of:
    Chamberlin, Ambassador Wendy J., retired, president, Middle 
      East Institute; Lisa Curtis, senior research fellow, South 
      Asia, Asian Studies Center, the Heritage Foundation; Deepa 
      M. Ollapally, Ph.D., associate director, Sigur Center for 
      Asian Studies, George Washington University Elliott School; 
      Sean R. Roberts, Ph.D., director, George Washington 
      University International Development Studies Program; and 
      Karim Sadjadpour, associate, Middle East Program, Carnegie 
      Endowment for International Peace..........................    11
        Chamberlin, Wendy J......................................    11
        Curtis, Lisa.............................................    20
        Ollapally, Deepa.........................................    29
        Roberts, Sean R..........................................    37
        Sadjadpour, Karim........................................    47
Letters, statements, etc., submitted for the record by:
    Chamberlin, Ambassador Wendy J., retired, president, Middle 
      East Institute, prepared statement of......................    14
    Curtis, Lisa, senior research fellow, South Asia, Asian 
      Studies Center, the Heritage Foundation, prepared statement 
      of.........................................................    23
    Flake, Hon. Jeff, a Representative in Congress from the State 
      of Arizona, prepared statement of..........................     8
    Ollapally, Deepa M., Ph.D., associate director, Sigur Center 
      for Asian Studies, George Washington University Elliott 
      School, prepared statement of..............................    32
    Roberts, Sean R., Ph.D., director, George Washington 
      University International Development Studies Program, 
      prepared statement of......................................    40
    Sadjadpour, Karim, associate, Middle East Program, Carnegie 
      Endowment for International Peace, prepared statement of...    50
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     4


     AFGHANISTAN AND PAKISTAN: UNDERSTANDING AND ENGAGING REGIONAL 
                              STAKEHOLDERS

                              ----------                              


                        TUESDAY, MARCH 31, 2009

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Flake, Duncan, Van 
Hollen, Welch, and Driehaus.
    Staff present: Elliot Gillerman, clerk; Dave Turk, staff 
director; Andy Wright, counsel; Alex McKnight and Anne Bodine, 
Pearson State Department fellows; Steve Gale, Brookings fellow; 
Brendan Culley, GAO detailee; Margaret Costa, graduate intern; 
Mariana Osorio, legislative assistant; Dan Blankenburg, 
minority director of outreach and senior advisor; Adam Fromm, 
minority chief clerk and Member liaison; Dr. Christopher 
Bright, senior professional staff member; and Glenn Sanders, 
minority Defense fellow.
    Mr. Tierney. Good morning. The Subcommittee on National 
Security and Foreign Affairs hearing entitled, ``Afghanistan 
and Pakistan: Understanding and Engaging Regional 
Stakeholders,'' will come to order.
    I ask unanimous consent that the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements. Without objection, so ordered. And I ask unanimous 
consent that the hearing record be kept open so that all 
members of the subcommittee be allowed to submit a written 
statement for the record. Again, without objection, so ordered.
    There were some caucus meetings scheduled at the same time 
and they weren't scheduled until late last night. So some of 
our Members may be either late in coming or coming in and out. 
Certainly no disrespect to the members of our panel, who are 
esteemed and appreciated and all the members of the 
subcommittee will of course have an opportunity to read your 
remarks and then see the transcripts as well. So we want to 
thank you for that.
    This is the subcommittee's continuing, hopefully broadening 
and in-depth oversight of the U.S. efforts in Afghanistan and 
Pakistan. We are seeking to examine the vital role of regional 
players today, including India, China, Russia, the Central 
Asian republics and Iran. We want to see how they get involved 
in achieving lasting security, peace and prosperity in what we 
all recognize is a very troubled area of the world.
    As you can see on the maps, there on the monitors on the 
side of the room, Afghanistan and Pakistan share about 1,600 
miles of border, the so-called Durand Line. The two countries 
in turn are bordered by six independent nations, Iran and 
Turkmenistan on the western flank, Uzbekistan and Tajikistan on 
the north and China and India to the east. Beyond those 
immediate borders are the regional powerhouses like Russia, 
Saudi Arabia, Persian Gulf states that have and continue to 
have significant sway on both Afghanistan and Pakistan.
    For too long, the role of regional players has not been on 
the radar screen, quite frankly, of U.S. policymakers. But one 
need only take a cursory look at the histories of both 
Afghanistan and Pakistan to know how vitally important outside 
influences have been and continue to be. Afghanistan, for 
example, has been the chessboard for international and regional 
power struggles between the United States and the Soviet Union 
and between Pakistan and India. To truly understand what makes 
Pakistan tick, you must first examine its relationship with its 
eastern neighbor, India.
    Understanding the role of these regional actors is not new 
to this subcommittee. For example, we held hearings more than a 
year and a half ago on the need to engage Iran, and we 
concluded that there was a better way beyond Sabre rattling. In 
fact, our past hearing entitled, ``Negotiating With Iran: 
Missed Opportunities and Paths Forward,'' explored the 
cooperation that Iran provided after 9/11 to drive the Taliban 
out of Afghanistan.
    Today I hope is a new day in Washington, as a regional 
security approach to South Asian security appears to now be on 
everyone's mind. More importantly, President Obama just 
released a new Afghanistan-Pakistan strategy this past Friday 
that makes regional security a priority.
    Central to the Obama administration's new approach is that 
we must treat Afghanistan and Pakistan as two countries but one 
challenge. The President has also made it absolutely clear that 
we must ``pursue intensive regional diplomacy involving all key 
players in South Asia.'' Further evidence about the new focus 
on regional actors can be found in the appointment of 
Ambassador Richard Holbrooke, an accomplished diplomat and 
dealmaker, as a special envoy to Afghanistan and Pakistan. 
Today I hope is also a new day on the international scene.
    As we listen today to our distinguished panel of witnesses, 
an 80-member strong U.N.-sponsored international conference is 
convening in the Hague on South Asia regional security. 
Secretary of State Clinton and Iranian representatives will be 
in the same room.
    Last week, the Shanghai Security Organization, consisting 
of Afghanistan's six neighbors, met in Moscow with the United 
States in observer status to examine regional security issues. 
That is the first time that has occurred. Unless all regional 
actors are engaged with and ultimately view a stable 
Afghanistan and Pakistan as being in their own best interests, 
these neighbors will continue to exert behind the scenes 
pressure and up front material support to the Afghan proxies. 
It is hoped that one day these regional actors will not only 
withhold from playing harmful roles, but will in fact play 
positive and constructive ones.
    There seems to be emerging consensus that Afghanistan will 
be unlikely to emerge as a nation in control of its own borders 
above to serve its own citizens and head down the road toward 
prosperity unless regional players are engaged and supportive. 
And Pakistan will not be able to truly come to terms with its 
terrorist challenges until a more mutually beneficial 
arrangement can be had with India.
    In short, there is no realistic option. There will be no 
long-term security for either Afghanistan or Pakistan other 
than through the cooperation and support of the region's other 
countries. We have come a long way from looking at Afghanistan 
and Pakistan in isolation. The role of regional security is now 
front and center. But that is just one step. We must go beyond 
just recognizing the vital role of regional players and examine 
how the United States and our allies can constructively engage 
them.
    What is the best way to proceed? What are the top 
challenges? What are the easy wins and where are the red lines? 
As we move from words to action, we must truly strive to 
understand how these regional players see their own national 
interests and we must explore what will motivate each of these 
neighbors to play constructive roles. I am pleased that we have 
such a fantastic panel of esteemed experts in South Asian 
affairs to help us with this endeavor today. All of you bring a 
wealth of scholarly knowledge and practicality of on-the-ground 
experience ranging throughout the region.
    I look forward to hearing your testimony. Thank you for 
being here, and I will defer to my colleague, Mr. Flake, for 
his opening remarks.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] T1898.001
    
    [GRAPHIC] [TIFF OMITTED] T1898.002
    
    [GRAPHIC] [TIFF OMITTED] T1898.003
    
    Mr. Flake. Thank you, Mr. Chairman. This is our fourth 
hearing on Afghanistan in this subcommittee. We have discussed 
many of the aspects leading to the conflict and I think this is 
the most important hearing so far, given the timing, with the 
President announcing his new strategy just last week. He 
described the situation in the region as increasingly perilous. 
I think I would like to hear from the panelists as they speak 
if they share that concern. But it seems from all the testimony 
we have heard in other hearings that is the case.
    He reported that al Qaeda and its allies are actively 
planning attacks on the United States and their bases in 
Afghanistan and Pakistan. President Obama's plan relies on 
using existing alliances, forging new ones and to fundamentally 
change conditions in Afghanistan and Pakistan. He described, as 
the chairman mentioned, a regional approach to address the 
global threat that al Qaeda poses to both westerners and 
Muslims alike.
    This is the first hearing of any committee in the House on 
this topic since the President announced his strategy. I just 
want to compliment the chairman for having the foresight to 
have this hearing at this time, and also welcome our very 
esteemed group of panelists here, and look forward to your 
testimony.
    [The prepared statement of Hon. Jeff Flake follows:]

    [GRAPHIC] [TIFF OMITTED] T1898.004
    
    [GRAPHIC] [TIFF OMITTED] T1898.005
    
    Mr. Tierney. Thank you, Mr. Flake. And as I say, we have 
been a couple of years in the making on this tack of 
recognizing that there is a need for regional activity here. 
Mr. Sadjadpour I think joined us in one of the previous panels 
about Iran in particular on the same issue. So we thank you for 
coming back.
    I would like to introduce the members of our panel before 
we get started. On my far left is Ambassador Wendy Chamberlin. 
She is currently the President of the Middle East Institute. 
She served as U.S. Ambassador to Pakistan during the September 
11th attacks from 2001 to 2002 and played a key role in 
Pakistan's initial cooperation following the attacks. From 2002 
to 2004, Ambassador Chamberlin served as Assistant 
Administrator for Asia and the Near East at the U.S. Agency for 
International Development, where she directed civilian 
construction programs in Iraq and Afghanistan.
    She has also previously served as director of global 
affairs and counterterrorism at the National Security Council. 
Ambassador Chamberlin holds a B.S. from Northwestern University 
and an M.S. from Boston University.
    Next to her is Ms. Lisa Curtis, who is a senior research 
fellow for South Asia at the Asian Studies Center of the 
Heritage Foundation. Prior to joining the Heritage Foundation, 
Ms. Curtis served on the professional staff of the Senate 
Foreign Relations Committee, as a Senior Advisor for South Asia 
for the U.S. Department of State, as an analyst for the CIA and 
as a foreign service officer in the U.S. embassies in Pakistan 
and India. Ms. Curtis has also testified before the 
subcommittee previously and we welcome you and thank you for 
coming back.
    Next is Dr. Deepa Ollapally, who is Associate Director of 
the Sigur Center for Asian Studies at George Washington 
University's Elliott School of International Affairs, where she 
focuses on South Asian regional security. Dr. Ollapally 
previously directed the South Asia Program at the U.S. 
Institute of Peace, was an associate professor of political 
science at Swarthmore College and headed the International and 
Strategic Studies unit at the National Institute for Advanced 
Studies in Bangalore, India. Dr. Ollapally holds a Ph.D. from 
Columbia University.
    Dr. Sean Roberts is the director of the international 
development studies program at the George Washington 
University's Elliott School of International Affairs. Dr. 
Roberts is a former senior-level official with the U.S. Agency 
for International Development, with significant expertise and 
experience in Central Asia and the author of a blog entitled, 
``The Roberts Report on Central Asia and Kazakhstan.'' Dr. 
Roberts holds a Ph.D. from the University of Southern 
California.
    And as I mentioned earlier, Mr. Karim Sadjadpour, who has 
been kind enough to be with us before, is back again. He is an 
associate at the Middle East Program at the Carnegie Endowment 
for International Peace. He is also the Chief Iranian analyst 
at the International Crisis Group in Tehran. Mr. Sadjadpour is 
a leading researcher on Iran and has conducted dozens of 
interviews with senior Iranian officials and hundreds of 
Iranian intellectuals, clerics, dissidents and others. Mr. 
Sadjadpour holds an M.A. from Johns Hopkins School of Advanced 
International Studies.
    I want to thank all of you for making yourselves available 
today and sharing your expertise. It is the practice of this 
committee to swear in witnesses before they testify. So I ask 
if you would be kind enough to please stand and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Tierney. Thank you. The record will please acknowledge 
that all of the panel members answered in the affirmative. And 
I would just tell you, I think some of you already know, your 
written remarks in their entirety will be placed in the record, 
fully in the record. We ask you to try to contain your remarks 
to about 5 minutes. We will be a little more lenient in that as 
we can but we do want to have the opportunity for everybody to 
get their statements out, to have some questions from the panel 
before we get interrupted with floor votes and things of that 
nature, so that we don't tie up your whole day.
    So with that, if we may, Ambassador Chamberlin, would you 
be kind enough to start with your testimony?

    STATEMENTS OF AMBASSADOR WENDY J. CHAMBERLIN, RETIRED, 
PRESIDENT, MIDDLE EAST INSTITUTE; LISA CURTIS, SENIOR RESEARCH 
    FELLOW, SOUTH ASIA, ASIAN STUDIES CENTER, THE HERITAGE 
  FOUNDATION; DEEPA M. OLLAPALLY, PH.D., ASSOCIATE DIRECTOR, 
 SIGUR CENTER FOR ASIAN STUDIES, GEORGE WASHINGTON UNIVERSITY 
   ELLIOTT SCHOOL; SEAN R. ROBERTS, PH.D., DIRECTOR, GEORGE 
    WASHINGTON UNIVERSITY INTERNATIONAL DEVELOPMENT STUDIES 
PROGRAM; AND KARIM SADJADPOUR, ASSOCIATE, MIDDLE EAST PROGRAM, 
           CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

                STATEMENT OF WENDY J. CHAMBERLIN

    Ms. Chamberlin. Thank you very much, Chairman Tierney and 
Ranking Member Flake, other members of the committee.
    It is indeed true that when the chairman first took the 
first steps to organizing this committee, the President had not 
rolled out his strategic review. So I think we can indeed say 
the chairman was prescient. Because of that review, it can best 
be described as an original approach. Ambassador Holbrooke 
summed it up when he said, ``the strategic review contains a 
clear and unambiguous message. Afghanistan and Pakistan are 
integrally related. You cannot deal with Afghanistan if the 
situation in Pakistan is what it is today.''
    I would add that to understand Pakistan one must understand 
Pakistan in the context of its relationship with India. Mr. 
Chairman, I have very distinguished colleagues at the table 
today and they will talk about Iran and Afghanistan and its 
other neighbors in Central Asia. I have been asked to talk 
briefly about Afghanistan's western neighbors, Pakistan and 
India, and the historical relationship with its western 
neighborhoods, which I will try to do very briefly.
    India and Afghanistan have enjoyed historically good 
relations with Afghanistan up until the point, really, through 
the Soviet occupation. India highly valued its relations with 
Afghanistan as a gateway for trade and to flank its traditional 
adversary in Pakistan. Relations were severed during the 
Taliban period, and during that period, India supported the 
Northern Alliance in its civil war with the Taliban.
    With the fall of the Taliban in 2001, India was one of the 
first at the table at the Bonn talks to offer a significant 
reconstruction assistance package, $750 million, which it 
increased to $1.2 billion frankly as a reaction to the bombing 
of its embassy in 2008. Those aid projects are valuable, well 
received, very visible and important in Afghanistan.
    Pakistan was also at the Bonn talks, has also provided aid, 
but has had historically a much more difficult relationship 
with Afghanistan. Now, this is not uncommon of two countries 
with a colonial border that splits an important ethnic group 
right down the middle, that is the Pashtuns. Pashtuns on both 
sides of Pakistan and Afghanistan, many of whom consider 
themselves Pashtun first and then only secondarily their 
identity as an Afghan or identity as a Pakistani. Historically, 
there has been a great deal of friction across that border, the 
Durand Line, a border, incidentally, which Afghanistan has 
never recognized. In the past, prior to the Soviet invasion, 
the Pashtun activists have argued for the creation of 
Pashtunistan, which would largely be cut from the Pakistan 
area. There have been incidences of Pakistani meddling in 
Afghanistan and of assistance from Afghanistan to Baluch 
separatists and anti-government groups in Pakistan. So it has 
been a rough relationship.
    The best way to understand the current relationship between 
Pakistan and Afghanistan now is through the lens of Pakistan's 
relationship with India. Pakistan has been quite, I would say, 
distressed that the Indians have reestablished themselves so 
well, so strongly in Afghanistan after 2001. It had hoped that 
a friendly government, more friendly to Pakistan, could be 
created and it wouldn't have to face its adversary on both 
sides, on the western border and the eastern border. This has 
not been the case and it has become sometimes exaggeratedly 
upset about Indian aid projects along its border, about Indian 
road construction, etc., and has been fearful that India is 
using its foothold in Afghanistan as a platform for a spy 
network. It has accused India of launching some anti-government 
assistance to group within Pakistan from India.
    It is disappointed to have lots its defense strategy of 
strategic depth. Pakistan is a very narrow country. It has 
always feared that if attacked by land on its eastern border 
that it would need to be able to retreat with the army and 
equipment into a friendly Afghanistan. And that is what is 
called strategic depth. It would like to keep that. It has a 
rough relationship with President Karzai at this point. Some 
experts have said, and I would like to hear what Lisa says, 
that the covert assistance now to the Taliban today is part of 
Pakistani, some in the Pakistan army wishing to have a hedge by 
maintaining good relationship with Pakistan to see what happens 
in the future, with the idea of reestablishing a strategic 
depth defense strategy.
    With regard to Pakistan and India, the heart of the 
hostility of course goes back to the unresolved issues of 
Kashmir left over from the partition periods. What is important 
for us to understand today is that over the last many years, 
several years, Pakistan has been covertly supporting Kashmir 
terrorist groups, now they are called Punjabi terrorist groups, 
to harass India in Kashmir. Lashkar-e-Taiba, Jaish-e-Mohammed 
are some of these groups. Indians regard them as just as much a 
terrorist group as al Qaeda and certainly the horrific attack 
at Mumbai is evidence of that.
    What has happened recently is whatever control the Pakistan 
army, ISI, thought they had over these groups is certainly not 
there any more. Yesterday's attack, believed to be by Lashkar-
e-Taiba on the police station in Lahore is evidence that these 
groups have now turned against official Pakistan, the army, the 
police, the near enemy, if you will. They have moved some of 
their folks to the Afghan border and formed this alliance with 
al Qaeda, this loose network along the Afghan border. It is 
very alarming to all of us.
    In conclusion, Mr. Chairman, I think it is true and it is 
certainly recognized in the President's strategy that the 
traditional frameworks for these relationships don't work any 
more. That in fact, if we are all very honest with ourselves, 
Afghanistan, Pakistan, India, the United States are all facing 
the same enemy in this region, and that enemy is al Qaeda and 
the al Qaeda-like terrorist networks that are attacking both 
us, the far enemy, and the local governments, the near enemy. 
These old rivalries face this common threat.
    So this new era of India and Pakistan and Afghanistan, it 
is quite correct to approach it in a regional approach. That 
doesn't mean it is going to be easy, and it presents a major 
challenge to our diplomacy. I think we have the right guy to do 
it in Ambassador Holbrooke. I have worked for him personally, I 
think he is one of our best diplomats. But he has a challenge. 
One of the larger challenges is to persuade the Pakistani army 
that its enemy is first and foremost the enemy within, rather 
than its traditional enemy of India, and that it needs to re-
tool and change its doctrine to meet that enemy.
    The challenge to our diplomacy further, and I am almost 
finished, with regard to India, is to certainly congratulate 
them and encourage them in the restraint that they showed after 
the attack on Mumbai. But to understand that they may get 
attacked again, these groups are just building in strength, and 
that we will need to work in a way that doesn't further 
destabilize the region.
    And with Afghanistan, I personally am skeptical that you 
can negotiate with extremists. Nor can you eliminate them 
militarily. What will be required on our part is perseverance 
to stay there until the region is stabilized enough that it 
doesn't present threats that can come back to us, to convince 
the people of the region that we will not abandon them. It will 
require a long, hard slog providing protection for the people, 
security in their own communities, jobs, education and a sense 
that they are protected with a judicial system and good 
governance as well.
    We have a big role to play, but we must play it in 
cooperation with those in the region.
    Thank you very much for this opportunity.
    [The prepared statement of Ms. Chamberlin follows:]

    [GRAPHIC] [TIFF OMITTED] T1898.006
    
    [GRAPHIC] [TIFF OMITTED] T1898.007
    
    [GRAPHIC] [TIFF OMITTED] T1898.008
    
    [GRAPHIC] [TIFF OMITTED] T1898.009
    
    [GRAPHIC] [TIFF OMITTED] T1898.010
    
    [GRAPHIC] [TIFF OMITTED] T1898.011
    
    Mr. Tierney. Thank you, Ambassador. You used Ms. Curtis' 
time, so we will move right along. [Laughter.]
    Ms. Curtis, you are all set, please.

                    STATEMENT OF LISA CURTIS

    Ms. Curtis. Thank you, Chairman Tierney, Ranking Member 
Flake and the rest of the distinguished members of the 
subcommittee. I am delighted to be here today.
    I will also focus the majority of my remarks on India and 
Pakistan, and I will try to not repeat Ambassador Chamberlin. I 
think she covered a lot of the territory and I agree with her 
points, particularly on Pakistan. I will also discuss the need 
for the countries of the region to change their own security 
perceptions, particularly Pakistan. And I will suggest ways for 
the United States to encourage such a shift in thinking.
    Of course, one of the key planks of the Obama strategy is 
to intensify regional diplomacy with a special focus on a 
trilateral framework between Afghan, Pakistani and American 
officials to engage at the highest level. A regional strategy 
involves identifying and nurturing allies while isolating those 
intent on undermining the international coalition's goal in 
Afghanistan.
    Now, this raises the critical question which Ambassador 
Chamberlin also addressed on how to create an effective 
partnership against terrorism with Pakistan when we do have 
elements, some elements within the Pakistani security 
establishment that are unconvinced that a Taliban-free 
Afghanistan is in their own national security interest. And our 
policies need to reflect this very hard reality. Yet we also 
need to shore up the Pakistan military in its fight against 
extremists, especially along the border with Afghanistan. 
Events over the last 5 days in Pakistan, including a suicide 
bombing at a mosque in the tribal areas last Friday that left 
over 50 dead and a gun attack on a police training facility in 
Lahore on Monday that killed at least 26, demonstrate the 
increasingly precarious situation in Pakistan. As Ambassador 
Chamberlin mentioned, early reports suggest the Lashkar-e-
Taiba, which also conducted the attacks in Mumbai, may have 
been responsible. So here we have an example, Pakistan and 
India facing a mutual threat. I think there is a sense that 
there is a loss of control with these groups that Pakistan had 
formerly supported.
    So we need to support Pakistan and see it through this 
transition. So long as Pakistan understands that these 
terrorists are also a threat to itself and is willing to 
address that, we certainly need to be there for Pakistan and 
shore it up in this fight.
    The United States must dedicate its diplomatic resources, 
as I said, to changing security perceptions. This won't be 
easy. But we need to support those people who are working 
toward this effort. And in this vein, I note Pakistani 
President Asif Ali Zardari has demonstrated his interest in 
developing a new vision for Afghan-Pakistani ties and we should 
strongly support him in this endeavor.
    The Congress, to do its part to support this new vision for 
Afghanistan-Pakistan ties, needs to immediately pass the 
Reconstruction Opportunity Zone legislation. This would provide 
U.S. duty-free access to items produced in industrial zones in 
the border areas of Afghanistan and Pakistan.
    President Obama has called for the passage of this 
legislation. We have had the Pakistani and Afghan ambassadors 
jointly support the initiative, arguing that it would draw the 
Afghan and Pakistani economies closer together and increase 
their cooperation. So this is absolutely critical legislation.
    Let me talk about Pakistan-Indian relations, because this 
is a key part of this puzzle. One of the major reasons we are 
continuing to have our difficulties in Afghanistan is because 
of Pakistan's lack of confidence when it looks east to its 
larger neighbor, India. So we need to find ways to increase 
that confidence in Pakistan's perception of its regional 
position.
    However, Washington should avoid falling into the trap of 
trying to directly mediate the decades-old Indo-Pakistani 
dispute over Kashmir. The United States is more likely to have 
success in defusing Indo-Pakistani tensions if it plays a quiet 
role in prodding the two sides to resume talks that had made 
substantial progress from 2004 to 2007, even on Kashmir. These 
talks, of course, were derailed by the terrorist attacks in 
Mumbai last November. And their resumption hinges on whether 
Pakistan takes steps to shut down this group, which of course 
the attack on the police training facility indicates that they 
may be moving in this direction, and prosecutes individuals 
involved in the planning and execution of those attacks.
    Continued Pakistani ambivalence toward the Taliban stems, 
as I said, from its concern about India trying to encircle 
Pakistan by gaining influence in Afghanistan. Pakistani 
security officials calculate that the Taliban offers the best 
chance for countering India's regional influence. Pakistan also 
believes that India foments separatism in its own Baluchistan 
province.
    Given these concerns of Pakistan, I think it is India's 
interest to ensure that its involvement in Afghanistan is 
transparent to Pakistan and the United States has a role to 
play in ensuring this. We, of course, should address 
forthrightly Pakistan's concerns, yet at the same time, dismiss 
any accusations that are unfounded.
    India has built close ties with Afghanistan over the past 7 
years and has become, I think, the fifth largest donor to the 
country, pledging over $1.2 billion. It has helped build roads, 
it has provided assistance for the new parliament building. 
However, many of India's workers have been killed in attacks 
and New Delhi blames those attacks on Taliban militants backed 
by Pakistani intelligence. And in fact, credible media reports 
reveal a Pakistani intelligence link to the bombing of India's 
embassy in Kabul in July of last year.
    So the United States needs to work with Pakistan to develop 
a new strategic perception of the region based on economic 
integration and cooperation with neighbors and tougher policies 
toward terrorists. But the United States must also respond when 
information comes to light that Pakistani officials are 
supporting the Taliban and other extremist groups. One way to 
respond to this is by conditioning future military assistance 
to Pakistan. I have spelled out some ideas in my written 
testimony and would be happy to elaborate further.
    I don't think conditioning aid to Pakistan is easy, when we 
also want to shore up the forces against extremists that are 
attacking the Pakistani state. So the idea is to implement a 
calibrated carrot and stick approach that both strengthens 
Pakistan's hand with the extremists while at the same time 
ensuring Pakistan finally breaks those links with the 
extremists that it supports to further its own strategic 
objectives.
    That concludes my remarks. Thank you.
    [The prepared statement of Ms. Curtis follows:]

    [GRAPHIC] [TIFF OMITTED] T1898.012
    
    [GRAPHIC] [TIFF OMITTED] T1898.013
    
    [GRAPHIC] [TIFF OMITTED] T1898.014
    
    [GRAPHIC] [TIFF OMITTED] T1898.015
    
    [GRAPHIC] [TIFF OMITTED] T1898.016
    
    [GRAPHIC] [TIFF OMITTED] T1898.017
    
    Mr. Tierney. Thank you very much. We appreciate that.
    Dr. Ollapally.

                  STATEMENT OF DEEPA OLLAPALLY

    Ms. Ollapally. Good morning, Mr. Chairman Tierney, Ranking 
Member Flake and members of the subcommittee. I want to thank 
you for inviting me and my colleagues to my right have already 
covered several points that I was going to make, so I am happy 
for that.
    I will focus my remarks on the competition between India 
and Pakistan in Afghanistan as I was requested to do so, as 
well as say a few words about what I think are the differences 
that we need to understand about the way extremism and 
terrorism is different from the Middle East to South Asia.
    As noted, there are a number of historical, strategic and 
identity factors that drive the Indo-Pakistan competition in 
Afghanistan. I am going to emphasize more on India, because I 
think it is important to understand what is driving the 
country's national interest in Afghanistan.
    One of the more counter-intuitive things that we 
immediately see is that despite the common religion, 
Afghanistan and Pakistan have actually been at odds for almost 
its entire history except for the Taliban period. Now, there 
has been, since 2001, there has been a low level competition 
going on in Afghanistan between India and Pakistan which 
sharply escalated and went into entirely different directions 
in July 2008 with the deadly suicide bombing of the Indian 
embassy in Kabul. And as mentioned, there is credible evidence 
to suggest that Pakistan's powerful intelligence agency, the 
ISI, helped plan the bombing.
    For the Afghan government, which has repeatedly been 
talking about playing a bridge role in the region, and which 
has been gaining significantly from India's development 
assistance, I think Pakistan's objective of shutting out India 
one way or the other from Afghanistan is a huge problem. So 
far, the U.S. Government has refrained from including India in 
regional political efforts in Afghanistan, basically bending to 
Pakistan sentiments. India has obviously not been happy with 
this state of affairs, but it has pushed ahead with development 
assistance instead. The new plan that was announced on Friday, 
which will include an international contact group which will 
have India involved, I think is a step in the right direction.
    The current strategy, which has been to allow Pakistan veto 
power over India's involvement in formulating regional 
solutions to the Afghan crisis is not working, and frankly, it 
rewards Pakistan for its behavior so far.
    Now, we have heard a little bit about the strategic depth 
argument for Pakistan when it looks at Afghanistan. And I think 
the argument has been made that it is mostly directed at India. 
I think that is only part of the issue. I think the other 
concern that Pakistan has is the Pashtun problem, the need for 
having a friendly government in Kabul. So the sponsorship of 
radical groups for foreign policy purposes in Afghanistan and 
in India has been a kind of signature foreign policy of 
Pakistan, one that is relatively low-cost and, as we can see 
gives rise to a level of plausible deniability.
    Now, post-2001, Afghanistan and India have increasingly 
spoken in one voice, although more muted on Afghanistan's side, 
about the threat from violent extremists being supported by or 
tolerated by Pakistan. Both countries have talked about 
Pakistan's dual policy, in Afghanistan and in the war on 
terrorism. And we see that it is coming back to haunt Pakistan 
but we are still not sure, even at this stage, that in fact the 
Pakistani military has made a decisive break. And of course, 
the Lahore bombings is a clear indication, but then we have to 
remember that in 2004, there were attempts against President 
Musharraf himself. And still, it has taken a long time to see 
any movement.
    The two countries that are most impacted by Pakistan's 
proxy wars are India and Kashmir and Afghanistan. So it is very 
important that we look at it in a composite way.
    As already mentioned, relations between India and 
Afghanistan have been close, and in fact, some of the top 
leaders in Afghanistan, including President Hamid Karzai and 
other members of the leadership have studied in India. They 
fled to India during the civil wars and the Soviet wars. 
Culturally, India's Bollywood, music, films, are a big staple 
for Afghan society as well as now Indian soap operas, 
apparently, are a big attraction.
    So what we see is a convergence of interests between India 
and Afghanistan on the strategic, economic and even cultural. 
Clearly, the strategic element is prompted by a common threat 
perception about Pakistan, but there are other benign factors, 
such as economic interests, that drive India and Afghanistan 
together. But I think from Pakistan's policy point of view, 
they see it as a zero sum game, and therefore, once again, 
Afghanistan is the one that stands to lose. It is caught in the 
middle.
    One of the things that we have to understand is that 
Afghanistan is basically trying to walk a fine line between its 
eastern neighbor, Pakistan, whose goodwill it is entirely 
dependent on for immediate security, and India, who holds out 
the longer-term attraction politically and economically that 
Afghanistan wants to tap into.
    Now, we have already heard about India's development 
assistance. It lost very little time after 2001 to build strong 
ties with Afghanistan. India has emerged as the largest 
regional donor. It is also, what distinguishes India from any 
other donors is it has undertaken projects in almost all areas 
of Afghanistan. It has relied on the government and local 
groups, rather than international NGO's, which has been the 
case with other donors.
    In fact, many observers have noted that Indian assistance 
is one of the best from any country, designed to win over every 
sector of Afghan society. So their projects go from 
hydroelectric projects to training and women's training 
sectors. And of course, it is done, designed to undercut 
Pakistan's influence along the way. There is no question.
    India has also forged relations in a different way, that is 
by being the strongest backer for Afghanistan to join SARC, 
which is the regional economic organization. But like most, 
these steps by India have given rise to a spiraling kind of 
competition and I think that is one of the reasons that 
Pakistan has been trying to keep India out of any kind of 
regional equation. India does not have transit rights through 
Pakistan to reach Afghan borders, although Afghanistan can send 
goods into India.
    Now, we have also noted that the Indian consulate, India 
has four consulates in Afghanistan along with an Indian 
embassy. So Pakistan has accused India of using some of these 
consulates to gather intelligence and even to provide 
assistance to Baluch insurgents now, a charge that we have not 
verified. But we do hear from close observers, such as Ahmad 
Rashid, Pakistani journalist, who has noted that the ISI has 
generated enormous misinformation about India's role in 
Afghanistan, such as telling Pakistani journalists that there 
were not two but six Indian consulates along the border.
    India has not participated in any military operations with 
multinational forces. I think that has brought on some goodwill 
from the Afghan population. But regional stability, and I will 
conclude with this, regional stability is critical, not just 
for Afghanistan as a post-conflict society, but also for India 
as a rising power in the region. And the real issue is how to 
bring Pakistan, how to structure its incentive in such a way 
that it too realizes that. I think the hope lies in the three 
democratic governments working together in a tri-polar 
situation.
    Thank you.
    [The prepared statement of Ms. Ollapally follows:]

    [GRAPHIC] [TIFF OMITTED] T1898.018
    
    [GRAPHIC] [TIFF OMITTED] T1898.019
    
    [GRAPHIC] [TIFF OMITTED] T1898.020
    
    [GRAPHIC] [TIFF OMITTED] T1898.021
    
    [GRAPHIC] [TIFF OMITTED] T1898.022
    
    Mr. Tierney. Thank you, Doctor.
    Dr. Roberts, you can see how closely we are adhering to the 
5-minute rule, which may be good news for you, because all you 
have to talk about is Kazakhstan, Uzbekistan, Kyrgyzstan, 
Tajikistan, Turkmenistan, China and Russia. [Laughter.]
    So have it, we are anxious for your remarks.

                  STATEMENT OF SEAN R. ROBERTS

    Mr. Roberts. Chairman Tierney and other members of the 
subcommittee, I would like to thank you for inviting me to 
speak today at a critical time for U.S. engagement in 
Afghanistan. As the chairman already noted, I will speak 
primarily about Afghanistan's northern neighbors, that is 
Russia, China and the Central Asian states of Kazakhstan, 
Kyrgyzstan, Tajikistan, Uzbekistan and Turkmenistan.
    In general, I would agree with the Obama administration's 
proposed Afghan strategy that promotes engaging these 
countries. But I also anticipate there being many obstacles to 
doing so effectively. On the one hand, all these countries 
would rather see Afghanistan as a potential market than as a 
source of terrorism and opium. On the other hand, Russia and 
China are suspicious of the United States' international agenda 
at best, and the Central Asian states are reticent to become 
too associated with U.S. efforts in Afghanistan in the event 
that these efforts fail.
    All these countries have reasons to want the United States 
to succeed in Afghanistan, but they would rather leave the work 
of realizing that goal to others. That being said, I do think 
there are opportunities to engage these countries in 
Afghanistan, if such engagement plays to their interest. In my 
opinion, China's interests in Afghanistan are an extension of 
its interests in Central Asia as a whole. They are primarily 
economic and mostly related to natural resource extraction.
    Late last year, China made the largest single foreign 
direct investment in Afghanistan in that country's history, 
purchasing the rights to a copper mine for $3.5 billion U.S. 
dollars. Surely, if Afghanistan stabilizes, China will be 
equally interested in the country's oil and gas reserves.
    Beyond its thirst for energy, China is also very interested 
in opening up overland routes of commerce. Having viewed 
Central Asia as an overland gateway to markets in the west, 
China likely views Afghanistan as the most effective opening 
for a direct route of commerce to the middle east.
    Given these interests of China, the United States should 
engage it on increasing its direct foreign investment and trade 
with Afghanistan, which will be perhaps the most important 
drivers of sustainable development in the country. In doing so, 
however, the United States must also challenge China to adopt 
transparent and ethical business practices in Afghanistan. If 
such investment is to have a positive role, it must complement 
rather than undermine attempts to develop effective and 
responsible governance in the country.
    The Central Asian states have different interests in 
Afghanistan. As countries bordering on Afghanistan with 
majority Muslim populations but secular governments, the 
Central Asians are very fearful of the spread of Islamic 
extremism from South Asia. While this fear speaks to Central 
Asians' desire for stability in Afghanistan, it also makes 
these states reticent to become too involved in the country.
    Despite this reluctance the Central Asian states have much 
to gain from being involved in Afghanistan's reconstruction. 
Kyrgyzstan, Tajikistan and Uzbekistan are all countries that 
are presently unable to offer employment to large portions of 
their population, making them sources of migrant laborers. 
Already many Central Asian companies and workers have found 
business opportunities in Afghanistan's reconstruction, but a 
formal strategy encouraging such opportunities could go a long 
way to courting the involvement of the Central Asian states.
    Also, there are already at least two major infrastructure 
projects under development to link Central Asia to Afghanistan. 
An agreement has been reached to buildup hydroelectric capacity 
in Kyrgyzstan and Tajikistan in order to feed Afghanistan's 
needs and plans have been drawn up for a Turkmenistan-
Afghanistan-Pakistan-India gas pipeline. If these projects are 
realized responsibly and effectively, they could bring tangible 
benefits to both Central Asia and Afghanistan.
    Now, Russia, however, I think is a much more difficult nut 
to crack. While Russia is interested in preventing Chechen 
separatists from obtaining support and refuge in Afghanistan, 
it also retains serious issues of wounded pride in connection 
with the Soviet failure to develop Afghanistan in the 1970's 
and 1980's. In this context, Russia may not be too happy to see 
the United States succeed where it has failed.
    Furthermore, Russia is extremely suspicious of U.S. 
interests in Central Asia, and it tends to view U.S. engagement 
in Afghanistan as part of a larger campaign to get a foothold 
in the region. Still, Russia's support to Afghanistan's 
reconstruction is critical. Russia can undermine efforts in the 
country through its influence over the Central Asian states, 
which it already has done by encouraging Kyrgyzstan to close 
the Manas Air Base and it can also use its influence in the 
Shanghai Cooperation Organization, which seeks a coordinating 
role for Russia, China and Central Asia in Afghanistan.
    As one Russian journalist recently told me, maybe the most 
positive thing that Russia can do in Afghanistan is to not do 
anything at all. But I would suggest that perhaps it would be 
easier to carve out a positive role for Russia than to get them 
to do nothing at all.
    One way to engage Russia may be to involve it more 
substantively in the large projects that aim to bring 
electricity and gas from Central Asia to Afghanistan. This may 
have economic interests of Russia involved and it may also 
dispel some of Russia's fears that these projects are aimed at 
drawing Central Asia outside its sphere of influence.
    In conclusion, I would like to say that in order to engage 
these neighbors to the north, the key will be to play to their 
interests. While it would be important to include these states 
in highly visible international forums on Afghanistan to obtain 
government buy-in, I don't foresee any of these states being 
important donor states or providing substantial bilateral 
assistance. Rather, they are most likely to make a difference 
through their private sectors, whether as a source of direct 
foreign investment, providers of building materials or a source 
of skilled laborers. Even in this context, however, Russia may 
remain a potential spoiler in any effort to gain the support of 
Afghanistan's northern neighbors in the country's 
reconstruction.
    That concludes my remarks. I think I maybe made it close to 
5 minutes.
    [The prepared statement of Mr. Roberts follows:]

    [GRAPHIC] [TIFF OMITTED] T1898.023
    
    [GRAPHIC] [TIFF OMITTED] T1898.024
    
    [GRAPHIC] [TIFF OMITTED] T1898.025
    
    [GRAPHIC] [TIFF OMITTED] T1898.026
    
    [GRAPHIC] [TIFF OMITTED] T1898.027
    
    [GRAPHIC] [TIFF OMITTED] T1898.028
    
    [GRAPHIC] [TIFF OMITTED] T1898.029
    
    Mr. Tierney. You did a great job. We appreciate it. Thank 
you.
    Mr. Sadjadpour.

                 STATEMENT OF KARIM SADJADPOUR

    Mr. Sadjadpour. Thank you, Mr. Chairman. It is a pleasure 
to be back, and I just want to commend the committee for their 
sustained commitment to probing these very difficult issues.
    At the risk of stating the obvious, the United States and 
Iran have very important overlapping interests in Afghanistan. 
Having accommodated over 2 million Afghan refugees over the 
last three decades, Iran has an obvious interest in seeing 
stability in Afghanistan. With one of the highest rates of drug 
addiction in the world, Iran has an obvious commitment to 
counter-narcotics, to see narcotic production eliminated, if 
not eradicated in Afghanistan.
    And last, having almost fought a war against the Taliban a 
little more than a decade ago, Iran certainly has no interest 
in seeing their resurgence.
    A senior European diplomat, fluent in Persian, was recently 
dispatched to Afghanistan. He was there to study Iranian 
influence in that country. He came back and he said that if 
Pakistan's influence in Afghanistan is about 80 percent 
negative, 20 percent positive, Iran's is probably the inverse, 
about 80 percent positive, 20 percent negative. That being 
said, Iranian foreign policy not only in Afghanistan but 
elsewhere is in many ways a byproduct of U.S.-Iran relations. 
And when U.S.-Iran relations are most adversarial, Iran sees it 
as a national priority, foreign policy priority, to try to make 
life difficult for the United States. And in Afghanistan, I 
think the most egregious example of that is Iranian flirtations 
with the Taliban and kind of sort support for the Taliban.
    People whom I have spoken to who have seen classified 
intelligence reports say that the support is too insignificant 
to make a difference, but significant enough to send a signal 
to the United States, that don't take Iranian goodwill and 
restraint for granted. To use a U.S. domestic policy metaphor, 
I think focusing too much on Iranian support for the Taliban is 
like focusing too much on illegal immigration from Canada to 
the United States.
    I don't want to exaggerate Iranian goodwill in Afghanistan, 
and I don't have any illusions about the character of this 
regime. A good friend of mine, an Iranian-American journalist, 
has been in prison for the last 2 months and I know that 
regimes which are intolerant and repressive at home do not seek 
to export Jeffersonian democracy and pluralism abroad. That 
being said, a country as decimated and desperate as Afghanistan 
certainly doesn't have the luxury of shunning aid from a 
country like Iran. No country obviously has the luxury of 
choosing its neighbors. And I think given Afghanistan's needs 
are so rudimentary in terms of building a viable state, I think 
Iran can play a very important role in that process.
    A few prescriptions I would like to conclude with. In my 
opinion there is very little cost and potentially enormous 
benefits to engaging Iran on Afghanistan. I would make four 
specific points. The first is that I think the term which was 
used vis-a-vis U.S. relations with China, this notion of 
responsible stakeholder, I think that is the philosophy with 
which we should try to approach Iran, not only with Afghanistan 
but on a broader level, try to compel Iran to be a responsible 
stakeholder. As I mentioned from the outset, there is very 
important overlapping interest in Afghanistan. Among other 
specific points, it would be very useful to kind of engage 
Iran's agricultural expertise in looking at alternatives to the 
poppy.
    U.S.-Iran direct engagement, meaning an engagement between 
U.S. forces and Iranian forces in Afghanistan, may be 
unrealistic in the near term. But I think what the United 
States can do is continue to encourage our European allies and 
NATO allies to work with the Iranians on these important 
issues.
    The second point I would make is that I think it is 
imperative that we make it clear to the Iranians that we are 
not merely interested in tactical cooperation or isolated 
engagement with them in Afghanistan. I think this was the 
mistake that the Bush administration made when trying to engage 
Iran and Iraq. And by all accounts, those discussions did not 
bear fruit. I think it was due in part to the fact that Iran 
felt that the United States was trying to agitate against it on 
so many other issues, yet it wanted its cooperation in Iraq. 
Iran obviously said, we are not going to make your life easier 
in Iraq if that is simply going to allow you more leverage to 
make life difficult for us afterwards.
    So I think we have to make it clear to the Iranians that we 
are not only interested in isolated tactical cooperation, but 
if at all possible, we would like to have a broader strategic 
discussion.
    The third point I would make is that I think it is 
important that we, whereas we understand the linkages between 
Iran's various foreign policy activities, we should at the same 
time disaggregate Iranian foreign policies. What do I mean by 
that? I mean that in the short term, I don't think anyone has 
any illusions we are going to reach a compromise with Iran on 
the support for Hezbollah, on the support for Hamas, or I think 
in the short term, certainly no one has any illusions there are 
going to be any breakthroughs on the nuclear issue.
    I don't think this should preclude U.S.-Iran cooperation in 
Afghanistan. On the contrary, I think that trying to build 
confidence in Afghanistan could well have a positive effect on 
those other issues.
    The fourth policy prescription pertains directly to 
Congress. That is that I think it is unhelpful to try to 
designate the Iranian Revolutionary Guards as a terrorist 
entity. And the reason why I say this is the Iranian 
Revolutionary Guards are essentially running Iranian 
activities, not only in Afghanistan but also in Iraq and 
Lebanon. I think by naming them a terrorist entity, we are 
essentially going to prohibit ourselves from working with the 
Iranian actors who matter most. So to paraphrase Donald 
Rumsfeld, we have to deal with the Iranian officials we have, 
not the ones we wish we had.
    Last, there is a debate about how we should go about 
engaging Iran and some would argue that we have to put the most 
difficult issues first, like the nuclear issue and Afghanistan 
and some of these other regional issues maybe are secondary. I 
would disagree with that, and I think the administration is 
absolutely on the right track. The reason why I say this is 
that the nuclear issue, the nuclear dispute is a symptom of 
U.S.-Iran mistrust, it is not an underlying cause of tension. 
Really, if we go to the very essence of the problems of this 
relationship, it is this issue of very deep-seated mutual 
mistrust.
    And I think the best way to try to allay this mistrust is 
to build confidence. I think there is no issue on which the 
United States and Iran share a more common interest than 
Afghanistan. If we can try to engage Iran on Afghanistan and 
establish new tone and context for the relationship, I think 
those discussions in and of themselves could well have an 
impact on Iran's nuclear disposition. If indeed Iran's nuclear 
ambitions are driven or are a reflection of their insecurity 
vis-a-vis the United States, again, if we are able to establish 
a different tone and context, the Afghan discussions in and of 
themselves could impact the nuclear calculations of Iran's 
leadership.
    Thank you.
    [The prepared statement of Mr. Sadjadpour follows:]

    [GRAPHIC] [TIFF OMITTED] T1898.030
    
    [GRAPHIC] [TIFF OMITTED] T1898.031
    
    [GRAPHIC] [TIFF OMITTED] T1898.032
    
    [GRAPHIC] [TIFF OMITTED] T1898.033
    
    Mr. Tierney. Thank you. This is certainly an impressive 
panel. We got a lot of information in a relatively short period 
of time, and we appreciate that.
    We are going to go into our question period here where we 
will give each Member at least 5 minutes to question and go 
around as much as we all have time for.
    Let me start with a rather broad question, if I might. Is 
it the opinion of each of you that the issues are best dealt 
with through a sort of contact group approach where the United 
States tries to convene all of these various parties and deal 
with issues jointly or is the best approach on a bilateral 
basis or some mix of that? We will start with Mr. Sadjadpour.
    Mr. Sadjadpour. There is often a concern, whether it is 
talking about Central Asia or the Middle East from regional 
countries that U.S. goodwill is a zero sum game and that the 
United States could sell out Pakistani interests for Iranian 
interests if it is only a bilateral discussion. So I think a 
multilateral format works well. And on the side, those 
bilateral discussions I think are very useful. And Iran is the 
one country of the neighboring countries in which the United 
States does not have any formal diplomatic relations, so I 
think those conversations are probably going to take more time.
    But it may be easier for both parties initially to do it in 
a multilateral setting. And with Iran, we have so many 
different interests at play, not only Afghanistan but Iraq, the 
Middle East, the nuclear issue, terrorism. And again, I think 
we are going to have these conversations on different levels. 
But I would argue that the multilateral setting may work best.
    Mr. Tierney. Does anybody disagree with that or is it the 
general consensus? OK, thank you.
    Dr. Roberts, how much of a motivating factor for 
cooperation, or is it even a motivating factor for cooperation, 
the concern about drugs and opium going up to those northern 
countries? How badly are they impacted by that? Is it in their 
interest to combine with others to try to deal with that? And 
what could they do in terms of being useful against that 
problem?
    Mr. Roberts. On one hand, it definitely is a problem for 
the Central Asian states. And I would say it is becoming an 
increasing problem for them. To a certain extent, prior to 
recent history I would say that a lot of the Central Asian 
states have dealt with the drug trade out of Afghanistan in a 
sort of ambiguous way, that there may have been some official 
benefiting from it and so forth and so on.
    But now the volume coming out of Afghanistan is such that I 
think they are really beginning to wonder whether this is a 
threat to their own national security, let alone the health of 
their population. There have been some odd events that took 
place last summer in Turkemenistan and in true Central Asian 
fashion, we don't know exactly what happened, but it seemed 
that there was essentially a battle between drug mafias and the 
capital city, and it almost closed down the government for a 
day. They officially said that it was some sort of threat of 
Islamic extremists, but evidence points more to the drug area.
    Now, what they can do in terms of battling the drug trade, 
I think the most important thing is in terms of U.S. assistance 
going to them in this area, of which there is already quite a 
bit, I think we need to see more political will from the 
Central Asians in really making the measures that are being 
taken work.
    Mr. Tierney [Remarks off mic.]
    Mr. Roberts. At least to a certain extent on their border 
posts. And also I have to say, it varies by countries. Like 
Kazakhstan has much more capacity because it has more 
resources. Kyrgyzstan and Tajikistan are really the countries 
that I think have a problem with capacity in this area, both 
protecting their borders and just in terms of the corruption 
within those countries and how much might just get through 
regardless of central governments' wishes.
    Mr. Tierney. Thank you.
    I can't see the clock down there, somebody is going to have 
to tap me when I get close to my time. OK, thanks. We will have 
another round on that, too.
    Dr. Ollapally, you made a comment about the manner in which 
India provides its assistance in Afghanistan, how successful 
they have been on that. Could you just expand on that a little 
bit for us, and let us know whether or not you think it is a 
model that the United States and the international community 
ought to follow as opposed to going through NGO's? We have had 
quite a bit of controversy on that.
    Ms. Ollapally. Yes. India's programs have been designed to 
give what they call local ownership of assets, and it goes 
through the government of Afghanistan. So one of the things 
that we have seen with international assistance is that as 
little as 15 percent or so of aid actually goes through the 
Afghan government. That leaves a lot that goes in some other 
direction. And I think that is a problem that we have seen, 
whether it is Bosnia or elsewhere, that we tend to give aid 
through international NGO's. And therefore, those NGO's get, 
suck up a lot of the resources and also people, skilled people 
in Afghanistan. It diverts it, I think, from these places.
    The other thing that I had mentioned about India is that 
they seem to have figured out a way of having projects in 
practically every single province, which is not easy, given the 
security concerns. I think it partly works because it probably 
can blend in a bit better in some sense, so that they are not 
as easy of a target. And they have had longstanding relations, 
so that these are surprising, India has had investment and so 
forth there, so they have a little bit more tradition and 
experience.
    But I think it is something that one needs to look more 
closely at, because that is one of biggest problems, is 
delivering the aid to those people who need it.
    Mr. Tierney. Exactly. Thank you.
    Mr. Flake.
    Mr. Flake. Thank you, Mr. Chairman.
    Mr. Sadjadpour, you mentioned that Iran has taken in 1.5 
million refugees over the time? How many of them remain and do 
they, are they housed in refugee centers or are they dispersed 
among other populations? Can you just talk a little about that?
    Mr. Sadjadpour. When I was based in Tehran, I used to go 
visit the U.N. HCR offices to talk about these things. The 
numbers are obviously very approximate. But over the course of 
the last three decades, the U.N. HCR estimates that Iran has 
accommodated approximately 2.5 million refugees at one point or 
another. It is believed that about a million of them have since 
gone back to Afghanistan after the removal of the Taliban. It 
is estimated that there is about 900,000 refugees, which are 
official and about another 600,000 or so who are unofficial.
    And their circumstances vary. Some are able to go to school 
and they are not living in refugee camps. Others have much more 
difficult circumstances. Oftentimes it depends on their 
backgrounds in terms of their education, etc. But I think 
certainly Iran could be doing much more for the refugees, but 
considering Iran's own economic difficulties, U.N. HCR has by 
and large commended Iran for taking many of them in.
    Mr. Flake. Are there active efforts to resettle them back 
in Afghanistan or is it pretty much status quo?
    Mr. Sadjadpour. Well, the second point I made that Iran's 
foreign policy is often a byproduct of U.S.-Iran relations, 
when Iran wants to make life difficult for the United States, 
make life difficult for the Karzai government, what they have 
done sometimes in the past is to abruptly and forcefully 
repatriate these refugees, send them back. So at times they do 
this, at other times they are more lenient. But in general, I 
think that given the burgeoning labor force within Iran, I 
think Iran feels that economically it is just too difficult to 
accommodate all of these refugees, and if at all possible, I 
think they would like to repatriate more.
    Mr. Flake. Thank you.
    Ms. Curtis, you mentioned that we needed to have a duty-
free zone, free trade with the areas of Pakistan and 
Afghanistan. What products in particular have some potential 
for growth as far as export?
    Ms. Curtis. I think they are looking mainly at textiles, 
particularly in the case of Pakistan. There may be some other 
items in Afghanistan that they are looking at as well. But I 
think the majority of these items, and the ones that would have 
the greatest impact on the economies, is in the area of 
textiles. There has been interest by outside investors in 
investing in such zones. So as difficult as it will be in terms 
of the security aspects, I think it certainly will bring in 
some outside investment, help to bring jobs to the people of 
this region. That is why I think this legislation is so 
important.
    I think one of the reasons it has been stalled is because 
it is----
    Mr. Flake. Is it more of a signal or is there going to be a 
substantive change? Are we talking about just at the margins in 
terms of the economy?
    Ms. Curtis. I think this region, we know, is extremely 
important to U.S. national security interests. In fact, 
President Obama said the tribal areas of Pakistan are the 
greatest danger to the United States. So I think, we don't know 
for sure if it will bring massive change overnight, but I think 
what we do know is it constitutes a way to start bringing 
change. I would carry this over to our assistance programs. A 
lot of people are arguing that U.S. assistance programs to the 
FATA are only having a marginal impact. But we have to start 
somewhere. And in fact, I have received many briefings on these 
assistance programs, and we are getting access to the region. 
This is the first step. These are areas that hardly any U.S. 
officials have even traveled to, let alone U.S. civilians.
    So I think that we have to start somewhere, and I think we 
are likely to see positive impact, maybe not overnight, but 
over time. It is part of the whole process of integrating this 
region into Pakistan, creating more cooperation between 
Afghanis, Pakistanis, creating jobs so that people have an 
alternative to extremism. That is the problem, they just don't 
have an alternative right now.
    Mr. Flake. I agree with you.
    Ms. Chamberlin, I think everyone recognizes that of all the 
regional players, Pakistan has the biggest border, biggest 
history of cooperation and antagonism in just about everything. 
What, in terms of our aid and assistance to Pakistan, both 
military and economic, should we be looking to condition these 
funds? What kind of strings attached? And we haven't seen, I am 
sure we will see different iterations of this proposal by the 
Obama administration. But what is your recommendation? Where do 
you cross the line between, at what point do the Pakistanis 
just say, sorry, you need our help as much as we need yours? 
What do you recommend in terms of conditioning this aid?
    Ms. Chamberlin. I think the answer is both and mixed. When 
I first arrived as Ambassador to Pakistan, one of the loudest 
bleats that we heard from the population, and we still hear it 
today is, oh, you Americans are just going to abandon us. You 
used us during the cold war when you needed us. You used us 
when the Soviet, you wanted to help them to help us evict the 
Soviets from Afghanistan. But as soon as the Soviets were out 
of Kabul, you cutoff your military aid, you cutoff your 
military IMET programs, you cutoff your USAID development 
assistance and you picked up and ran. And no amount of 
explanation ever convinced them that it was conditioned on 
their moving forward with the development of their nuclear 
weapons program. That is just as absent from their memory, 
although it was the reason why we cutoff our military and aid 
assistance at that time.
    You hear that today, the charge that we will just abandon 
them again. As soon as you get bin Ladin, you will just leave 
us.
    I think to answer your question now, that is the context, 
to answer your question, I believe we must condition military 
assistance. I do not recommend that we condition assistance to 
civilian programs, to USAID programs, to education, to job 
creation, to health. That ought not to be conditioned. And we 
ought to use the non-conditioning of aid that goes to people, 
the people of Pakistan, as evidence that we have no intention 
of abandoning them, that we recognize that they are in dire 
need, that we are there for the long term.
    On the military assistance, I agree with remarks that the 
chairman made earlier. There is a history of duplicity and we 
have to carefully balance the way we work with the army. We 
need the army. We need the army, let's face it, to be 
successful in bringing stability not only to Pakistan but to 
Afghanistan. But we need an army that understands that we are 
working together. And it is going to require very delicate 
balanced diplomacy to get there. But I think conditioning, 
particularly on the big ticket items, F-16s they still want and 
some of these big weapons systems that cannot conceivably be 
used in the counter-terrorism arena, but are still very much 
geared to their traditional adversary in India, we ought to 
take a hard look at.
    Mr. Tierney. Thank you.
    Mr. Driehaus, you are recognized for 5 minutes.
    Mr. Driehaus. Thank you, Mr. Chairman. I want to thank the 
panel for excellent testimony. Following the panel from last 
week, you only further demonstrate how difficult and how 
complicated the situation is in Afghanistan.
    It strikes me that the goals of U.S. foreign policy in 
Afghanistan are really about denying safe harbor to terrorists, 
and those terrorists tend to be in the tribal areas that were 
described in Pakistan. But I guess my question for all of you 
is, really, your assessment of our resource allocation. At the 
same time we are trying to build a rule of law in Afghanistan, 
we are trying to move toward economic development, we are 
trying to train security forces in Afghanistan, we are also 
engaged in diplomatic efforts in the Indo-Pakistani 
relationship, hopefully diplomatic efforts in Iran, diplomatic 
efforts in the north.
    Talk a little bit about the level of our participation and 
the appropriateness of the current resource allocation and how 
you might adjust it if you had that opportunity.
    Ms. Chamberlin. I think it needs a total scrub. Much has 
been said in the media about the fact that the United States 
has provided $11 billion, I think it is now up to $12 billion 
to Pakistan since 2002, and that most of that has gone to the 
military. Actually, at least, or over 50 percent of that 
military assistance has been coalition support funds, which has 
been rent for the army to subsidize their activities along the 
border, which haven't been very effective.
    But much less, less than 10 percent has gone to these 
civilian programs that I was talking about through USAID. Yet 
it is still a lot of money, even 10 percent of $12 billion is a 
lot of money. And we haven't seen very much impact. I think the 
comments made by my colleague about Indian aid in Afghanistan 
where much greater impact, the people have seen much greater 
impact for their assistance than we have been able to realize 
in both Afghanistan and Pakistan.
    So I would certainly endorse the comments made that we need 
to reevaluate the way we give assistance, not through big NGO's 
and big for-profit organizations, but in more calibrated 
programs that work from the bottom up. Now, we are beginning to 
do that in Afghanistan, we are beginning to do that in the 
FATA, the federally administered tribal areas, where we go in 
almost like three cups of tea style, into the villages and sit 
down and talk about what they need. It is also, incidentally, 
when you go into a village and talk to the people and say, how 
would you use the money if we were to give you $10,000, it is 
democracy-building, because they are beginning to work together 
to make decisions, and leaders come out of that.
    But I do think we need a bottom up approach, and I think we 
need to reevaluate how we give assistance. But the measurements 
of our assistance must be, do they have impact in the lives of 
people. I would focus our attention, our assistance and I would 
eliminate some of the sectors that we deal in. And I would not 
spread it out as widely as we are currently doing.
    Ms. Curtis. I just want to add to that, one of the problems 
I think in the past has been even our economic assistance has 
gone in the form of budget support directly to the Pakistani 
Exchequer, rather than through programmed through USAID 
funding. That has changed, and of course, Chairman Tierney 
played a critical role adopting and introducing and then 
passing legislation that required certain amounts that funding 
go specifically toward education projects. So I think that is 
critical to remember, because you are going to be facing this 
issue, is it budgetary support, is it programmed through USAID. 
And that is a very fine balance. I think it is also when you 
require more USAID officials on the ground in Pakistan, which 
has a lot of different security implications.
    So as we talk about this $1.5 billion, it is a massive 
increase in our assistance. You have to think through very 
carefully about how that is going to be implemented, what kind 
of monitoring mechanisms. Because I know there is even concern 
among USAID officials that, do we have the capacity, the 
ability to correctly monitor. We probably do, but we need to 
make sure of that. And we need to, your subcommittee will be, I 
am sure, involved in asking all of those critical questions.
    Mr. Tierney. Thank you very much, and you are absolutely 
correct. We will be as involved as we can be on that. We think 
that the capacity issues are serious.
    We will be working over the 2-week in-district period to 
try to set up some hearings with the State Department and 
others as to what the capacity is and how they intend to meet 
the goals that the President set out on that. It will be a 
crucial matter.
    Mr. Duncan, you are recognized for 5 minutes.
    Mr. Duncan. Thank you very much, Mr. Chairman, and thank 
you for calling another hearing on the issues and problems in 
Afghanistan and Pakistan.
    I voted against the war in Iraq from the very beginning, 
because I thought it was a terrible mistake and I still think 
it is a terrible mistake. I remember reading in Newsweek just 
before the war started that Iraq had a total GDP of about a 
little over $65 billion the year before we went in there. Just 
think about that in relation to the massive amounts of money 
that we ended up spending there and are still spending there. A 
few weeks ago, we had a hearing in here on Afghanistan and we 
were told at that time that we spent $173 billion in 
Afghanistan since 2001. And now because we are moving our troop 
levels up from 38,000 to 55,000, approximately, we are going to 
be spending even more there.
    Yet just 2 days before that hearing, that hearing of a few 
weeks ago, the Washington Post had a story in which they quoted 
General Petraeus as saying that Afghanistan had been the 
graveyard of empires. And then a few months ago, in this 
committee, we had another hearing on Afghanistan and I asked 
the question of how much we were spending in Afghanistan. And 
it is so difficult, because I have no idea who is right. Former 
Ambassador Chamberlin just talked about $12 billion since 2002. 
And maybe that is correct, but at that other hearing we were 
told that it was approximately $5 billion a year in Pakistan, 
counting all the different programs that we have, military and 
every other program. Maybe they were counting in the operation 
of the U.S. embassy and various offices, I don't know. It is 
difficult to pin these things down.
    But what I do know is that all this massive money that we 
are spending in all these different countries, it seems the 
more we spend in a country, the more resentment we create. And 
yet, when you are in the Congress, if you don't go along with 
every massive foreign spending that anybody asks for, you are 
labeled as an isolationist. And yet I have always thought that 
we should have trade and tourism with other countries, and we 
should have cultural and educational exchanges, and we should 
help out during humanitarian crises.
    But we are spending money that we don't have. The Congress 
voted not long ago to raise our national debt limit to 
$12,104,000,000. That is an incomprehensible figure, but what 
it means is that in just a short time, we are not going to be 
able to pay all of our Social Security and Medicare and our 
civil service pensions and our veterans pensions and things we 
have promised our own people. And it seems to me that we have 
to take another look at what we are doing. We have turned the 
Department of Defense into the Department of Foreign Aid now. 
And I know that all those who liked foreign aid, they would 
frequently leap to point out that direct foreign aid is just a 
tiny portion of the entire Federal budget, and that is true.
    But every department, every major department and agency in 
the Federal Government is spending huge amounts of money in 
other countries now. And it just doesn't seem that we are 
getting very much bang for our buck. I have noticed that any 
time anybody specializes in what is going on in another country 
or they have spent much time there, they seem to fall in love 
with that country or feel that region is the most important in 
the world, and they always say that we are not spending nearly 
enough.
    But how much longer we can go on spending these ridiculous 
amounts of money, especially in a time when we are adding $4 
trillion to our national debt, this year and the next 2 years 
alone, I just don't believe that the money is there. And I 
don't believe we can do it. I think we have to take a really 
hard look at all of these programs and we have to have, we have 
to take a hard look, I think, at our policies in the Middle 
East. Because our unbalanced policy in the Middle East seems to 
be what is creating the most resentment against us throughout 
the world.
    So thank you very much, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Duncan. We appreciate your 
comments. Thank you.
    Mr. Welch, you are recognized for 5 minutes.
    Mr. Welch. Thank you, Mr. Chairman. And thank the 
witnesses, tremendous testimony.
    As I understand it, there is basic unanimity that the Obama 
effort to reach out regionally and engage diplomatically is 
wise. And No. 2, the region of the world is very complicated 
with respect to Afghanistan. China sees it as an economic 
opportunity, Russia basically hopes we stub our toe there 
because of their own embarrassment. Central Asians are hesitant 
to do anything that might irritate Russia. Iran sees it 
fundamentally through the prism of their relationships with us 
on other issues, and Pakistan fears India. So they in some 
certain ways support a proxy war for the Taliban. And India has 
an opportunity to create economic and cultural ties.
    The question I have is this: what is the impact of the 
military policy that I think would have to be characterized as 
escalation for increasing the number of troops on the ground, 
and that would be an escalation, what impact will that have on 
the diplomatic escalation that you all support? Just each of 
you speak very briefly about it.
    Ms. Chamberlin. I will begin and Lisa Curtis will mop it 
up. There was a recent poll conducted in Afghanistan, of the 
people of Afghanistan, asking them what is their greatest 
concern. More than economic development, the majority of this 
population, according to this poll, was concerned about their 
own security. And they define their own security not as threats 
from extremists, necessarily, but threats from corruption. So 
they have a, what I am getting at is that we will not be able 
to achieve our goals of bringing stability to that region is 
the people do not feel secure in their own communities and 
their own homes.
    The way I see the President's strategy is an increase in 
U.S. troops, hopefully for the short term, to train the Afghan 
national police and the Afghan national army, to a point where 
they can begin to provide the kind of security that the people 
need to feel in their own communities. The surge in troops, if 
you want to call it a surge, will be used for training 
purposes, but also to provide that cushion while the army and 
the police are brought up to strength.
    Ms. Curtis. I think it helps our regional strategy in a 
couple of ways. One is, part of the reason Pakistan continues 
to have links to the Taliban and support these groups, as 
Ambassador Chamberlin pointed out, is a hedging strategy, 
because they don't believe we have the staying power in 
Afghanistan. So I think President Obama's statement on Friday, 
a very strong statement of remaining committed to Afghanistan, 
as well as sending more troops, sends a clear signal on U.S. 
intent toward the region. I think the last 6 months have been 
extremely unhelpful. We did this review process, it was 
necessary, it was the prerogative of the Obama administration. 
But it also created a lot of confusion about where U.S. policy 
was going. I don't think that was helpful.
    So now I think we have a basis on which to bring people 
into our regional diplomatic strategy, so I think it does help. 
It helps with India. India knows that Talibanized Afghanistan 
is not good for their interests. They will keep moving east, 
they will threaten India's core interests. So it will help in 
bringing the Indians along in what we want to see happen in 
terms of India-Pakistan relations.
    Ms. Ollapally. I think we have to be very careful about 
what the objectives are of the surge in the troops. Because 
there is no real military solution in my mind there. Therefore, 
this is just going to be a, it is going to be a short-term 
help. I think the bigger picture has to be intertwined with the 
regional approach. I think that is the one approach that we 
have not tried so far. We have been trying the bilateral.
    And even in the regional approach, I think it would help 
with both, in terms of sending the right signals as well as 
possibly raising more funds, in terms of donors to 
Afghanistan's reconstruction. I think that is a very good 
start, to have the other countries involved.
    But I think we also have to make sure that at the same time 
that we are having the increased troops that across the border 
in Pakistan that we also do not let certain other developments 
happen, such as, for example, the peace agreement in Swat with 
the militants. I think that is very unhelpful in part because 
what it does it allows, in the longer term for these extremists 
to get a breather. Therefore, if we are there for 2 years or 
whatever, we are leaving behind a scenario that could easily 
come back to haunt us again. So I think it cannot be, the surge 
cannot be seen in isolation. It cannot be seen just as a 
counterpart to the regional. But it has to be seen across the 
border as well in a total picture.
    Mr. Roberts. I think for the northern neighbors of 
Afghanistan there is maybe some discomfort with increased 
troops. But I think the big issue is whether we have troops in 
Central Asia. And I think in some ways it may have been a 
blessing that Kyrgyzstan has removed the base there. Because I 
think as long as we have a military presence in Central Asia, 
we are going to get the ire of the Russians. I don't think that 
it is really beneficial in the long term. Those bases, as I 
understand it, are not critical to the operations in 
Afghanistan.
    Mr. Sadjadpour. Well, as my colleagues said, I think the 
troop increase is part and parcel of a broader diplomatic 
approach. I don't think the Iranians will have a problem with 
that. As I mentioned, they are no friend of the Taliban, so 
they do want to see the Taliban weakened, if not defeated.
    But I think they would be opposed, as would Congressman 
Duncan, to some type of a long-term U.S. presence, troop 
presence in Afghanistan, because they would probably perceive 
that as a threat to themselves.
    Mr. Tierney. Thank you very much.
    Just a couple other questions, if I could, well, first a 
comment on that, going back to the conversation about some of 
the aid to Pakistan and the amount of it. This committee was 
able to do its own report, staff did an excellent job putting 
that together, on the coalition support funds, and of a report 
from the Government Accountability Office as well. Some $6.3 
billion since 2001 going and about 40 percent of which we 
determined was unaccounted for.
    So that they have started to account for, and surprisingly, 
once they did, they stopped payments, because they weren't 
being justified and reconciled enough. I think we are certainly 
going to push, at least a number of people on this committee 
are going to push to move away from the coalition support funds 
method of funding, because it can't be accounted for, and 
because also it is this sort of rental concept that the 
Ambassador talked about, when in fact we have joint interests 
there. We will be looking to condition the military money on 
those joint interests, not so much keeping a score card on the 
Pakistanis alone, but how is our joint effort accomplishing the 
ends that we want to, and assure they get continued funding on 
that to move people along. So that should be something we can 
look forward to in the debate as we get into the appropriations 
process on that.
    I had just two broader questions I thought would clean 
things up. Mr. Sadjadpour, would you talk a little bit about 
the relationship between Iran and Pakistan?
    Mr. Sadjadpour. It is a very peculiar relationship in the 
sense that I oftentimes wonder why it is not worse than it is. 
What I am talking about is the last several years in Iraq has 
oftentimes been described as a proxy war between the Iran and 
Saudi Arabia. Iran is supporting its Shia brethren, in Saudi 
Arabia, the Sunnis. And we have seen a deterioration of Saudi-
Iranian relations because of that.
    In Afghanistan, we see a somewhat similar dynamic in the 
sense that Pakistan has long been the patron of the Taliban and 
Iran had long been the patron of the Northern Alliance, the 
opposition. And yet, we haven't seen a deterioration of country 
to country relations. Also despite the fact that Iran is quite 
concerned about the repression of Shiites within Pakistan, and 
to the contrary, we have seen actual Pakistani cooperation. 
Some would argue whether it is official cooperation, but A.Q. 
Khan, Pakistan nuclear scientists, provided huge support to 
Iran in its own nuclear ambition.
    So it is one of those issues, every time you pick up the 
newspaper, there are so many things wrong in the world, and 
that is one issue. I wonder why it is not worse than it is, and 
I think we should be thankful, we should try to contain it, 
because it has the makings of a very contentious relationship.
    Mr. Tierney. Maybe we should just leave it alone.
    Mr. Sadjadpour. Yes. [Laughter.]
    Mr. Tierney. Dr. Roberts, would you talk just a little bit 
about China? I know you covered it in your written remarks. But 
if you could just address how intense is China's interest in 
this area likely to be? Or are they more inclined to sort of 
observe things?
    Mr. Roberts. Well, I think, as I mentioned in my testimony, 
China's interest in Afghanistan I think is more long-term and 
it is more economic. I don't think they are going to be 
extremely involved in the short-term right now. I think they 
see Afghanistan as part of a larger strategy in Central Asia, 
but they are certainly focused on Central Asia for the long 
term. I think people in the United States often don't take that 
into consideration when looking at Central Asia. They see it 
from Russia. But actually, China is making a lot of inroads. 
They have oil and gas pipelines going from Central Asia into 
China. And certainly, they hope that things will stabilize in 
Afghanistan and that will be another area where they will have 
extreme influence.
    Mr. Tierney. Thank you very much.
    And last, for our three witnesses on the middle and left 
hand side, we talked about reconstruction opportunities zones. 
I think one of the questions about that is what kind of 
oversight and accountability will there be, how do we ensure 
that some local chieftain, tribal aspect, is not taking control 
of a particular industry, or cluster of industries on that 
basis? And they might not have our best interest in mind, but 
they reap an incredible profit from taking advantage of that? 
So if we could just have a little conversation about that. Dr. 
Ollapally, I don't know if you want to opine on that or pass it 
on to Ms. Curtis and the Ambassador.
    Mr. Curtis. Yes, I think this is a critical aspect of the 
issue and I think it is one that the Congress has been debating 
over. It is going to be difficult, both because of security in 
these areas, getting U.S. officials out to projects, being able 
to visit them. I think it will be extremely difficult. We may 
have to rely on other surrogates, or people who can get into 
these areas and work with them.
    But again, I would come back and look at how we are doing 
our aid projects in the region. It is very recent, we just 
started providing aid to the FATA I think a year and a half ago 
or so. So these are new projects. But we are getting in there, 
we are working with locals who are very motivated. So there are 
ways to do the monitoring. You can work with your Pakistani 
counterparts at the same time.
    But it does take a lot of effort and it takes people on the 
ground. There are going to be security concerns, we can't get 
away from that. But I think these programs are absolutely 
critical. So we have to find a way to monitor what is 
happening, and we may have to be very creative about that.
    Again, my best thoughts on the issue come from what we are 
already doing through our Office of Transition Initiatives at 
the USAID.
    Mr. Tierney. We spent some time with those folks not too 
long ago when we were visiting. I think it is tenuous. It is a 
nice effort, it is somewhat creative. I think the jury might 
still be out as to whether or not we are getting the kind of 
information we need to really determine it. As you say, it is 
risky out there. Sometimes even the local Pakistanis are 
considered foreigners and have a difficult time getting close 
enough to it. We are using some aerial overviews and other 
measures on that.
    So it will be something we have to keep expanding on, I 
think. I do think it is going to be a real issue, a real 
problem.
    Ms. Curtis. And it has to go hand in hand with stabilizing 
the region and bringing back the civil service in the region 
and the Pakistani governance structures. So I think that is 
another way to look at it, that we can't really do effective 
economic development programs without effective governance. It 
is one of those issues.
    Mr. Tierney. Thank you.
    Mr. Flake.
    Mr. Flake. Just a couple of questions to finish. Dr. 
Roberts, you mentioned that Chinese involvement can be helpful 
if it is done in a responsible way. How can we ensure, or can 
we do anything to ensure, that China intervenes in Afghanistan 
in a responsible way?
    Mr. Roberts. I don't know if we can ensure. I think we can 
encourage them to. I think there is some, essentially it is in 
their interest, if they are interested in long-term economic 
investments in Afghanistan, it is in their interest that 
Afghanistan become a stable country. China historically has 
shied away from the idea of giving countries advice on their 
governance structures and what constitutes good governance. But 
I think that the Chinese could be convinced that in trying to 
make any kind of economic investments transparent, and in line 
with governmental reforms in Afghanistan that is in their 
interest.
    Furthermore, to kind of incorporate some of the corporate 
social responsibility practices that we see in the west in 
terms of perhaps doing some local economic development around 
investment, so if they are investing in a copper mine they 
should be doing some things locally to help the population out. 
Because that also is essentially in their interest, but it is 
also in the interest of the development of Afghanistan.
    Mr. Flake. We have seen in areas, particularly in the 
Pacific, Taiwan competing with mainland China on some of these 
development efforts. Is there any effort by Taiwan to get 
involved in Afghanistan?
    Mr. Roberts. I don't know about that. Yes, I have no 
information on Taiwan's involvement.
    Mr. Flake. Dr. Ollapally, you mentioned that with Pakistan 
that we may need to offer some kind of incentives, I believe 
you said. Other than conditioning our aid, military and 
economic, what incentives? Is there recognition, tie it to work 
on the nuclear issue? I think others have said that our efforts 
in Kashmir may be counterproductive. What else can we do other 
than condition our aid?
    Ms. Ollapally. I think unfortunately it comes back to two 
things. One, money, which is what we have to offer for the 
Pakistanis. And changing the incentive structure for Pakistan 
military, I think until we figure out what it is that will get 
them to give up the stronghold that they have on the foreign 
policy process, I mean, it comes down to a very basic thing. We 
have to give them more incentive to get out of the political 
life of Pakistan.
    And how do you do that? I think one way is by supporting 
democratic regimes in Pakistan. I have to say that in the past, 
we have not been very good at that. Because if you look at the 
history of Pakistan, every time the democratic governments have 
been in power is exactly when we have decided to leave. And 
that tells something to the military, as well as to the 
democratic regimes.
    So I think the stronger we are in supporting Zardari's 
regime right now, and I think we have to make sure that we are 
there. The other thing is that I think Zardari is a 
businessman, I think they have seen that there is a great deal 
of benefit by cooperating economically with India, and that 
having the region stable is good for investment climate. It is 
terrible right now for Pakistan. That is related to the 
relations with India. And so it is with India.
    So I think that is, the economic relationship is what we 
should be pushing for.
    Mr. Flake. Thank you.
    Mr. Tierney. Thank you. I want to thank all of our 
witnesses today. You have added incredible insight to us, and 
great perspective on the whole range of neighbors in that area. 
I think you have been of great service to the subcommittee and 
to the Congress, and we thank you for that.
    Thank you, Mr. Flake, for your participation, and members 
of the committee. This will be the end of the meeting, we 
adjourn, with our gratitude.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
